SUPREME COURT OF THE
UNITED STATES
PETITION FOR REHEARING
Ruth E. Reeves, Plaintiff
vs.
Secretary of Defense of The United States Military &
Mr. Mongell, CEO of Fort Walton Beach Medical Center
From the United States District Court, Northern District of Florida, Pensacola
Division; Ruth Ellen Reeves vs. Mark Esper, Secretary Defense of United States
Military & Mr. Mongell, CEO of Fort Walton Beach Medical Center;
case number 3:20cv3658-RV/HTC
and the United States Court of Appeals for the Eleventh Circuit;
case number 20-11406-D.

Ruth Ellen Reeves, 320 Boxer Avenue, Niceville, FL 32578
(850) 225-3977. No attorney.

Case Number:

20-5707
mint
Page 1 of 14

q `);170

OFFICE OF THE CLERK
SUPREME COURT, U.S.

DECLARATION OF COMPLIANCE, as set forth in 28 U. S. C. ยง 1746. 1
declare under penalty of perjury that the foregoing is true and correct. I am a
United States of America citizen, certifying that I am unrepresented by counsel.
This petition is presented in good faith and not for delay. The grounds for filing
this appeal for a rehearing are due to circumstances of a substantial and
controlling effect and contain grounds not previously believed to be presented.
Every citizen of the United States is guaranteed the privilege to sue the
government or any entity for a deprivation of rights that have been set forth in
the Constitution. This case has been denied that right from the very beginning.
Federal Statutes are in conflict with the decisions from the lower courts, hereby
requesting a Writ of Certiorari. Furthermore I, Ruth Ellen Reeves, the Plaintiff,
have every reason to believe that this case has not been properly briefed to the
honorable United States Supreme Court Justices for appropriate consideration.
A substantial and controlling effect that produced a denial of a Writ of Certiorari
is that the decision was pushed through just a few days before the new honorable
Justice Amy Coney Barrett was sworn into office. Therefore, the even number of
only eight Justices voted in an unfair manner to the Plaintiff. The Judiciary Act of
1869 returned the court to its current nine-justice system, and the number hasn't

Page 2 of 14

changed in the 151 years since. The most recent attempt to deviate from nine
justices was in 1937, when President Franklin Roosevelt unsuccessfully attempted
to pack the court. The Supreme Court has had an odd number of Justices since
1807 for a reason. To avoid a potential constitutional crisis. The Supreme Court
must be able to perform its function, which is to decide cases, and that requires
an odd number of members.

Section 183 creates remedy when a deprivation of rights exists. The entire basis
of this case consists an entire deprivation of all rights guaranteed in the United
States Constitution. Federal Constitutional rights have been consistently denied.
A violation of the Fourth Amendment's guarantee is merely the beginning
mitigating state of affairs within the case. The Fourth Amendment rights is
guaranteed to all American citizens. I, Ruth Reeves, have clearly provided
evidence of not only this violation but many more. Every citizen of America is
guaranteed the right to go to a hospital for emergency care, especially when an
attempt has been made on their life and to expect that all hospitals are bound to
respect patient's, rights and do what is agreed that is best for their care. It would
seem that a United States Military Hospital would be expected to do the same.
The United States Supreme Court has held that a person's entitlement to welfare
benefits under the federal social security is a federal right stemming from a

Page 3 of 14

federal statute that can be protected by section 1983 (Maine v. Thiboutot, 448 U.
S. 1, 100 S. Ct. 2505, 64 L. Ed. 2d 555 [19801). Due to this case, I have been denied
Social Security Disability; even with a certificate of total-permanent disability.

Original jurisdiction cases are heard directly by the Supreme Court without going
through the appeals courts process. Under Article Ill, Section II of the
Constitution, the Supreme Court has original and exclusive jurisdiction over rare
but important cases involving disputes between the states, and/or cases
involving ambassadors and other public ministers. Under federal law at 28
U.S.C. ยง 1251, Section 1251(a), no other federal court is allowed to hear such
cases. Original jurisdiction has been denied the Plaintiff numerous times.

This case names Mark Esper as minister of the United States Military, because the
United States Air Force and Army are involved in many devastating abuses and
violations of human rights to life, liberty, and the pursuit of happiness for many
years and across many state lines. Evidence is provided for the court within the
petition for a writ of certiorari. It doesn't matter if Mark Esper is fired by the
current President of the United States of America. This case is not against Mark
Esper as an individual, he is named as a minister for our country's military service.

Page 4 of 14

Also named is Mr. Mongell, CEO of The Fort Walton Beach Medical Center; as
minister of the hospital and secondary minister forcefully placed upon the
Plaintiff, as my rights have been violated -- even to the point of being electrically
executed to death. Literally. The Court has the authority to hear cases involving
public ministers. This case holds national significance and could harmonize
conflicting decisions in the federal Circuit courts, and will hold precedential value.

The District Court denied Due Process and deemed that I, as a citizen, am not able
to sue the military or a hospital for anything. Under Section 1983 of the U. S.
Code, a citizen is permitted to bring forth a lawsuit against government
employees or entities for violation of any constitutional right. Section 1983
applies to the use of excessive force and wrongful seizure. Section 1983 provides:
Every person who, under color of any statute, ordinance, regulation,
custom, or usage of any State or Territory or of the District of Columbia,
subjects, or causes to be subjected, any citizen of the United States or other
person within the jurisdiction thereof to the deprivation of any rights,
privileges, or immunities secured by the Constitution and laws, shall be
liable to the party injured in an action at law, suit in equity, or other proper
proceeding for redress.
Federal courts are authorized to hear cases brought under section 1983 pursuant
to two statutory provisions: 28 U. S. C. A. ยง 1343 (3) (1948). The former statute
permits federal district courts to hear cases involving the deprivation of civil rights

Page 5 of 14

and the latter statute permits federal courts to hear all cases involving a federal
question or issue. Cases brought under section 1983 may therefore be heard in
federal courts by application of both jurisdictional statutes.

Article VI of the U. S. Constitution, The Supremacy Clause, mandates:
States must provide hospitable forums for federal claims and the
vindication of federal rights.
This point was solidified in the Supreme Court decision of Felder v. Casey, 487 U.
S. 131, 108 S. Ct. 2302, 101 L. Ed. 2d 123 (1988). The Felder case involved an
individual who was arrested in Wisconsin and later brought suit in state court
against the police officers and city for violations of his federal rights. The state
court dismissed the claim because the plaintiff failed to properly comply with a
state procedural law. But the Supreme Court overturned the state decision,
holding that the Wisconsin statute could not bar the individual's federal claim.
The plaintiff does not have to begin in state court. The Supreme Court has
broadly construed the provision "under color of any statute" to include virtually
ANY State Action, including the exercise of power of one "possessed by virtue of
state law and made possible only because the wrongdoer is clothed with the
authority of law" (United States v. Classic, 313 U. S. 299, 61 S. Ct. 1031, 85 L. Ed.
1368 [1941]). The Defendants, The United States Military and The Fort Walton

Page 6 of 14

Beach Medical Center have acted pursuant to a "custom or usage" that had the
force of law in the state as in the case of Adickes v. S. H. Kress & Co., 398 U. S.
144, 90 S. Ct. 1598, 26 L. Ed. 2d 142 (1970).

The United States District Court of Appeals, 11th Circuit, in Atlanta Georgia
further caused needless delays, held the case for extended periods of time, and
then denied the Plaintiff's case to proceed in forma pauperis; knowing that the
Plaintiff is disabled without any income what-so-ever and disregarded the
federally mandated automatic acceptance of proceeding in forma pauperis after
the lower court has established the Plaintiff's rights to proceed in forma pauperis.
Rule 24 (a) (3) has provided that a party who was permitted to proceed in forma
pauperis in the district court may continue to proceed in forma pauperis in the
court of appeals without further authorization...

This case was docketed in The United States Supreme Court, both of the
defendants and representation has been certified to receive a documentation of
the case; whereby the court requested a response in writing within 30 days of
documentation. The Solicitor General of the United States waived his right to
respond on behalf of the United States Military. The United States Attorney failed
to respond at all. The Fort Walton Beach Medical Center has never responded.

Page 7 of 14

Therefore, their respective rights have been waved. Plaintiff has provided
evidence for every complaint contained in the original petition for writ of
certiorari.

The Joint Commission standard RI.01.07.01 requires hospitals to establish a
complaint resolution process under the responsibility of the governing body
unless otherwise delegated, and by requiring hospitals to inform patients and
families about the complaint resolution process. The Joint Commission also
requires hospitals to do the following (Joint Commission standard RI.01.07.01
element of performance 4,6,7):
Review and -- as possible -- resolve complaints from patients and
families.
Acknowledge receipt of complaints that cannot be resolved
immediately and notify the patient of follow-up to the complaint.
Provide patients with telephone numbers and addresses required to
file a complaint with the relevant state authority.
DNV GL, Det Norske Verita's, standards require hospitals to implement a formal
grievance procedure that includes the following:
A list of whom to contact.
Review and resolution of grievances by the governing body, or
written delegation of this function to an appropriate individual or
committee.
A process to refer quality-of-care issues for quality management
oversight.

Page 8 of 14

Delineation of reasonable time frames for review and response to
grievances.
DNV also requires that grievance resolutions be made in writing and directed to
the patient, and include the following:
Hospital contact person.
Investigative steps taken.
Results of the grievance process.
Process for escalation of unresolved complaints.
Date of completion.
According to the Agency for Health Research and Quality; responding to concerns
is the "hallmark of service recovery"; assuring the individual that the situation will
never happen again is a critical component of resolution. (Levin and Hopkins;
AHRQ). Neither of the defendants have attempted to achieve any conflict
resolution with the Plaintiff.

CMS regulations and standards require hospitals and other providers to establish
grievance programs. Truly patient-focused organizations distinguish themselves
from others by handling complaints in such a way that unhappy patients feel that
their concerns have been addressed and that they are valued by the organization
(AH RQ).

Due to this case, when my granddaughter was only five years old she was sexually
molested the authorities felt no need to take value in my testimony. Her case
Page 9 of 14

was dismissed, no follow up was made. My one and only granddaughter is now
sixteen years old and so depressed about what has happened to her that she has
suicidal thoughts that are so strong the therapist is sending her to a psychiatrist
and she is going to be put on chemical medications for depression.

The essence of the case involves me, the Plaintiff, being a victim of attempted
homicide. I went to the Emergency Room of Eglin Air Force Base Hospital three
days in a row. All three days, I was deathly low on Potassium -- even after being
given IV. I was so dehydrated that on the third day, seven veins collapsed before
an IV could be administered. I flat-lined three times on their good heart monitor.
A reasonable person would believe a patient in such condition had every right to
fear for her life and ask to be tested for poison. Every single person at the Eglin
Air Force Base Hospital should have been trained to recognize that a person has
been poisoned. They illegally Baker Acted me to The Fort Walton Beach Medical
Center. It was there that I was kept an involuntary prisoner for seven days and
nights. It was at the Fort Walton Beach Medical Center that I was refused my
right to the sanity hearing that I petitioned for in writing. It was also in that
hospital that I was refused my right to see a medical doctor.

Page 10 of 14

In that same hospital I was forced to take dangerous black label medication
against my will. That same medication was causing people all over the United
States to have heart attacks and was not forced on the other patients while I was
there. In that same hospital, that refuses to answer my complaint, I was
executed to death with several jolts of 460 Volts of electricity into my brain. I
later woke up in the morgue.

Since that time, more attempts have been made on my life. Justice is denied to
me, because of this case. I was six weeks away from obtaining my Bachelor
Degree in Teaching Education; because of this case, the military had me forcibly
removed from ever being able to obtain my degree. A minimum of $50,000 a
year has been stripped from the realm of possibility for my future. The United
States Military intervened in an automobile accident that I was involved in within
the City of Niceville limits; completely out of their jurisdiction. Even though I was
the only person involved in the accident that was injured, and my injuries have
rendered me permanently and totally disabled; the Eglin Air Force Base legal
office stopped the insurance companies from giving me $185,000 for my injuries.

Because of this case, I have wrongfully been denied total permanent disability
from Social Security since 2006. With complete disregard to the physical

Page 11 of 14

disabilities Social Security refused to give me disability income that was most
assuredly due; because I would not consent to a mental evaluation. At the Fort
Walton Beach Medical Center, Patricia Harrison told me that if she ever seen me
again she would see to it that I became permanently institutionalized. After what
happened to me at the FWB Medical Center, because I went to the Eglin AFB
Hospital when poisoned; I fully believed Patricia Harrison had the power to do as
she threatened. Patricia Harrison seen to it that I was never given the antidote
for the poison in my system. I remain with severely damaged vital organs
because of it. Meanwhile, Eglin Air Force Hospital monitored me for internal
organ damage and did nothing to right the wrong they imposed on me.

I, the Plaintiff, Ruth Ellen Reeves seek appeal for a rehearing with the United
States Supreme Court. Everything that I have stated herewith and in the
preceding petition for a writ of certiorari is the truth, the whole truth, and
nothing but the truth.

You, the honorable Justices, have taken an oath to support and defend the
Constitution of the United States against all enemies, foreign and domestic; and
to bear true faith and allegiance to the same; taken the obligation freely, without
any mental reservation or purpose of evasion; and to faithfully discharge the

Page 12 of 14

duties of the office you have entered. You swore that you would administer
justice without respect to persons, and to do equal right to the poor and to the
rich, and to faithfully and impartially discharge and perform all the duties
incumbent upon you under the Constitution and laws of the United States.

So help me God.

Ruth Ellen Reeves
Plaintiff

CORPORATE DISCLOSURE STATEMENT: Rule 29.6 -- There is no parent or publicly
held company owning 10% or more of any corporations stock pertaining to this
case. Except that the Fort Walton Beach Medical Center is partners with Twin
Cities Hospital of Niceville.

CERTIFICATE OF COMPLIANCE
This request for a Writ of Certiorari complies with the limits set in LR7.1(f) and
the type-size limit of LR7.1(h). It contains a total of 2, 989 words, including all
text, headings, and quotations in the official count produced by Microsoft Office
2007, using Calibri (Body) text size 14.

Page 13 of 14

IN THE SUPREME COURT OF THE UNITED STATES

REEVES, RUTH ELLEN
Petitioner

No: 20-5707

vs.

MARK T. ESPER, SECRETARY OF DEFENSE, ET AL.
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
September 23, 2020

RUTH ELLEN REEVES
320 BOXER AVE.
NICEVILLE, FL 32578

